CERTIFICATE OF SERVICE
I, Sarah Erickson André, hereby certify that the foregoing extension letter in 20-1566,
David Cassirer, et al. v. Thyssen-Bornemisza Collection Foundation, was electronically filed
with the U.S. Supreme Court, and one copy was sent via first class U. S. mail and e-mail to the
following parties listed below, this 2nd day of June, 2021:
David Boies
Boies Schiller Flexner
333 Main Street
Armonk, NY 10504
Phone (914) 749-8200
dboies@BSFLLP.com
Counsel of Record for Petitioners
/s/Sarah Erickson André
Sarah Erickson André

